No. 20-1029
In the

Supreme Court of the United States
__________________

CITY OF AUSTIN, TEXAS,
Petitioner,
v.
REAGAN NATIONAL ADVERTISING OF TEXAS,
INCORPORATED, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

__________________
BRIEF OF AMICI CURIAE INTERNATIONAL
MUNICIPAL LAWYERS ASSOCIATION, MICHIGAN
MUNICIPAL LEAGUE, TEXAS MUNICIPAL
LEAGUE, LOUISIANA MUNICIPAL ASSOCIATION,
KENTUCKY LEAGUE OF CITIES, AND
TENNESSEE MUNICIPAL ATTORNEYS
ASSOCIATION IN SUPPORT OF PETITIONERS

__________________
CHARLES W. THOMPSON, JR.
AMANDA KELLAR KARRAS
Counsel of Record
ERICH R. EISELT
DEANNA SHAHNAMI
INTERNATIONAL MUNICIPAL
LAWYERS ASSOCIATION
51 Monroe Street, Suite 404
Rockville, MD 20850
(202) 466-5424
akarras@imla.org
Counsel for Amici Curiae

i
QUESTION PRESENTED
Did Reed v. Town of Gilbert sub silentio overrule
Metromedia, Inc. v. City of San Diego such that
distinctions in local government sign codes between
on/off-premises signs are automatically content based
as the Fifth and Sixth Circuits held, or are such
distinctions subject to intermediate scrutiny as the
Third and Ninth Circuits held.

ii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iv
INTEREST OF AMICI. . . . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 4
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

THE CIRCUIT COURTS ARE SHARPLY
DIVIDED FOLLOWING THIS COURT’S
DECISION IN REED, RESULTING IN
CONFUSION
FOR
LOCAL
GOVERNMENTS . . . . . . . . . . . . . . . . . . . . . . 6

II.

CERTIORARI IS WARRANTED TO
RESOLVE THE TENSION BETWEEN THIS
COURT’S HOLDING IN METROMEDIA
AND REED . . . . . . . . . . . . . . . . . . . . . . . . . . 11

III.

UNLESS THIS COURT PROVIDES
FURTHER CLARITY, REED WILL
SUBVERT CENTRAL HUDSON . . . . . . . . . 15

IV.

THIS CASE PRESENTS AN IMPORTANT
ISSUE FOR THE NEARLY 40,000 LOCAL
GOVERNMENTS IN THIS COUNTRY . . . . 17
A. Studies Demonstrate that Digitized OffPremises Signs Present Significant Safety
Risks for Local Governments’ Citizenry . . . 17

iii
B. The Issues in this Case are Important to
Local Governments Who Spend
Significant Time, Money, and Resources
on Amending Sign Codes . . . . . . . . . . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

iv
TABLE OF AUTHORITIES
CASES
Act Now to Stop War & End Racism Coal. v.
District of Columbia,
846 F.3d 391 (D.C. Cir. 2017). . . . . . . . . . . 7, 9, 10
Adams Outdoor Advert. Ltd. P’ship v. City of
Madison, No. 17-cv-576-jdp,
2020 U.S. Dist. LEXIS 60861
(W.D. Wis. Apr. 7, 2020) . . . . . . . . . . . . . 13, 14, 15
Adams Outdoor Advert. Ltd. P’ship v. Pa. DOT,
930 F.3d 199 (3d Cir. 2019) . . . . . . . . . . . . 7, 9, 13
Boelter v. Hearst Communs., Inc.,
192 F.Supp. 3d 427 (S.D.N.Y. 2016) . . . . . . . . . 15
Cal. Outdoor Equity Partners v. City of Corona,
No. CV 15-03172 MMM (AGRx), 2015 U.S.
Dist. LEXIS 89454 (C.D. Cal. July 9, 2015),
aff’d 244 Cal. App. 4th 291 (2016) . . . . . . . . . . . 13
Central Hudson Gas & Elec. Co. v. Public Serv.
Comm. of N.Y., 447 U.S. 557 (1980). . . . . . passim
Chamber of Commerce of Greater Philadelphia v.
City of Philadelphia,
319 F.Supp. 3d 773 (E.D. Pa. 2018) . . . . . . . . . . 16
Contest Promotions, LLC v. City & Cty. of S.F.,
867 F.3d 1171 (9th Cir. 2017). . . . . . . . . . . . . . . 17
De Buono v. Nysa-Ila Med. & Clinical Servs. Fund,
520 U.S. 806 (1997). . . . . . . . . . . . . . . . . . . . . . . 18

v
Hillsborough Cty. v. Automated Med. Labs., Inc.,
471 U.S. 707 (1985). . . . . . . . . . . . . . . . . . . . . . . 18
Hucul Advert., LLC v. Charter Twp. of Gaines,
748 F.3d 273 (6th Cir. 2014). . . . . . . . . . . . . . . . 18
International Outdoor, Inc. v. City of Troy,
974 F.3d 690 (6th Cir. 2020). . . . . . . . . . . . . . . . 16
Jeff Anthnoy [sic] Props. v. Alviti, No. 1:19-CV00360, 2020 U.S. Dist. LEXIS 121576 (D.R.I.
July 10, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Leibundguth Storage & Van Service, Inc. v.
Village of Downers Grove,
939 F.3d 859 (7th Cir. 2019). . . . . . . . . . . . . . . . 16
Matter of Expressview Dev., Inc. v. Town of Gates
Zoning Bd. of Appeals, 46 N.Y.S.3d 725
(App. Div. 4th Dept. 2017) . . . . . . . . . . . . . . 13, 15
Metromedia, Inc. v. San Diego,
453 U.S. 490 (1981). . . . . . . . . . . . . . . . . . . passim
Naser Jewelers, Inc. v. City of Concord,
513 F.3d 27 (1st Cir. 2008) . . . . . . . . . . . . . . 18, 19
Rappa v. New Castle Cty.,
18 F.3d 1043 (3d Cir. 1994) . . . . . . . . . . . . . . . . 13
Reagan Nat’l Advert. of Austin v. City of Austin,
972 F.3d 696 (5th Cir. 2020). . . . . . . . . . . . . 7, 8, 9
Recycle for Change v. City of Oakland,
856 F.3d 666 (9th Cir. 2017). . . . . . . . . . . . . 10, 11
Reed v. Town of Gilbert,
576 U.S. 155 (2015). . . . . . . . . . . . . . . . . . . passim

vi
Rodriguez de Quijas v. Shearson/
American Express, Inc., 490 U.S. 477 (1989) . . . 12
Ry. Express Agency, Inc. v. New York,
336 U.S. 106 (1949). . . . . . . . . . . . . . . . . . . . . . . 18
Strict Scrutiny Media Co. v. City of Reno,
812 F. App’x 462, 2020 U.S. App. LEXIS
21296 (9th Cir. 2020) . . . . . . . . . . . . . . . . . . . . 7, 9
Thomas v. Bright,
937 F.3d 721 (6th Cir. 2019). . . . . . . . . 7, 8, 12, 16
Wollschlaeger v. Governor,
848 F.3d 1293 (11th Cir. 2017). . . . . . . . . . . . . . . 5
STATUTES AND ORDINANCES
Cary, N.C., Land Development Ordinance,
ch. 9.1.3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
D.C. MUN. REGS. tit. 24, § 108.5 . . . . . . . . . . . . . . . 10
D.C. MUN. REGS. tit. 24, § 108.6 . . . . . . . . . . . . . . . 10
Montgomery Co., Md. Zoning Ordinance
§ 59.1.4.2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Reno Nev. Land Dev. Code § 18.24.203.4570(24) . . . 9
Tucson, Ariz., Unified Development Code,
art. 11.4.16 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
OTHER AUTHORITIES
Brief of Appellant, Reagan Nat’l Advert. of Austin v.
City of Austin, no. 19-cv-50354 (5th Cir. July 9,
2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

vii
E-mail from Brian Connolly, Shareholder with
Otten Johnson and Professor of Land Use
Planning at the Univ. of Colo. School of Law in
Boulder and the Univ. of Denver Sturm College
of Law to Amanda Karras, Deputy Gen. Counsel,
Int’l Mun. Lawyers Assoc., (Jan. 22, 2021, 6:59
pm EST). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
E-mail from Daniel Mandelker, Professor of Land
Use Law and State and Local Government Law,
Wash. Univ. in St. Louis School of Law, to
Amanda Karras, Deputy Gen. Counsel, Int’l
Mun. Lawyers Assoc., (Feb. 2, 2021, 5:23 pm
EST). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
E-mail from Susan Trevarthen, Partner, Chair of
Public Sector Land Use and Zoning Practice
Group, Weiss Serota Helfman Cole & Bierman
to Amanda Karras, Deputy Gen. Counsel, Int’l
Mun. Lawyers Assoc., (Feb. 1, 2021, 12:17 pm
EST). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Reaction Time Cognitive Ability-Neuropsychology,
COGNIFIT, https://www.cognifit.com/science/
cognitive-skills/response-time . . . . . . . . . . . . . . 20
Jerry Wachtel, Compendium of a Decade’s Worth of
Research Studies on Distraction from Digital
Billboards (Commercial Electronic Variable
Message Signs [CEVMS]), The Veridian Group,
Inc. October 16, 2020 . . . . . . . . . . . . . . . 18, 19, 20

1
INTEREST OF AMICI1
The International Municipal Lawyers Association
(IMLA) is a nonprofit, nonpartisan, professional
organization consisting of more than 2,500 members.
Membership is comprised of local government entities,
including cities, counties, and subdivisions thereof, as
represented by their chief legal officers, state municipal
leagues, and individual attorneys. IMLA’s mission is to
advance the responsible development of municipal law
through education and advocacy by providing the
collective viewpoint of local governments around the
country on legal issues before the United States
Supreme Court as well as state and federal appellate
courts.
The Texas Municipal League (TML) is a non-profit
association of over 1,160 incorporated cities. TML
provides legislative, legal, and educational services to
its members. The Texas City Attorneys Association
(TCAA), an affiliate of TML, is an organization of over
500 attorneys who represent Texas cities and city
officials in the performance of their duties.
The Louisiana Municipal Association is a non-profit
organization comprised of 305 governmental entities
throughout the State of Louisiana (303 cities, towns,
and villages, and 2 parishes) and it was formed in 1929
1

No counsel for a party authored this brief in whole or in part, and
no such counsel or party made a monetary contribution intended
to fund the preparation or submission of this brief. No person other
than Amici curiae made a monetary contribution to its preparation
or submission. Amici state that counsel for all parties received
more than ten days’ notice of Amici’s intent in filing this brief and
all have consented to the filing of this brief.

2
for the protection and promotion of the interests of its
member entities and their citizens. The LMA fulfills
its trifold mission of education, advocacy, and service to
its members to promote efficiency and effectiveness in
municipal governance.
The Michigan Municipal League (MML) is a nonprofit organization comprised of over 500 cities, villages
and townships in the State of Michigan. The MML was
formed in 1899 for advocacy and educational purposes
to advance municipal issues.
The Kentucky League of Cities (KLC) is a non-stock,
nonprofit membership association serving 381
Kentucky cities, as well as many municipal agencies.
12 Kentucky cities came together in 1927 to create
KLC in recognition of the need to establish a unified
front on common legislative issues and create
economies of scale for purchases. KLC continues in its
mission to provide a united voice for our cities through
legal and legislative advocacy, insurance services, and
member services that support community innovation,
effective leadership, and quality governance.
The Tennessee Municipal Attorneys Association is
a voluntary association of city attorneys, assistant and
deputy city attorneys, and other municipal
practitioners across the state of Tennessee. The
Association has 133 members representing cities and
towns in east, middle, and west Tennessee. The
purpose of the Association is to promote
professionalism and competence in the practice of
municipal law, to be a clearinghouse of municipal legal
information for Tennessee attorneys, to facilitate
communication among Tennessee’s municipal

3
practitioners, and to work with the Tennessee
Municipal League to promote favorable public policy for
Tennessee’s cities and towns. The Association regularly
provides Continuing Legal Education programs for its
members.
This case is of significant concern to the nearly
40,000 local governments nationwide as the circuit
split presented has disrupted a basic regulatory
function of local governments in this country. Amici
are member organizations for local governments and
one of their core functions is to provide education and
guidance to their members on legal issues, including
the First Amendment and sign regulation. Since this
Court’s decision in Reed v. Town of Gilbert, 576 U.S.
155 (2015), however, they have been unable to
definitively advise their members as to whether they
can rely on Metromedia, Inc. v. San Diego, 453 U.S. 490
(1981) to distinguish between on/off-premises signs and
a host of other issues involving arguable content based
distinctions common to sign regulations such as
distinguishing between commercial and noncommercial speech as allowed in Central Hudson Gas
& Elec. Co. v. Public Serv. Comm. of N.Y., 447 U.S. 557
(1980). Because this case presents an ideal vehicle to
clarify an important area of First Amendment
jurisprudence that affects virtually every local
government in this country this Court should grant
certiorari and resolve the circuit split.

4
SUMMARY OF ARGUMENT
In the 2018 ALCS game between the Boston Red
Sox and Houston Astros, the umpire called Jose Altuve
out for fan interference when fans knocked the wouldbe home run out of Mookie Betts’ glove. In contrast,
Chicago Cub fans will never forget the infamous no-call
fan interference play in the 2013 NLCS game, after
which the Cubs blew a lead and lost the series. While
differences in interference calls in baseball games may
frustrate die-hard fans, they are part of a pastime that
inevitably requires subjective decision-making by
umpires. But the First Amendment of the United
States Constitution should not be applied unevenly
depending on geography.
Unfortunately, that is what has happened in the
wake of this Court’s decision in Reed.
Local
government attorneys in Boise, Pittsburgh, and
Washington D.C. can confidently advise their clients to
draft a sign code that makes distinctions between
on/off-premises signs while their counterparts in
Lubbock and Toledo violate the First Amendment when
drafting the exact same ordinance. Meanwhile, for
tens of thousands of local governments in the First,
Second, Fourth, Seventh, Eighth, Tenth, and Eleventh
Circuits, the jury is still out regarding the same
distinctions in sign codes. Those jurisdictions must
resort to reading tea leaves and risking costly litigation
on the one hand or allowing unsafe driving conditions
on the other.
This is not a hypothetical concern. Since this Court
decided Reed, which some courts dubbed a “sea

5
change”2 while others downplayed its impact (further
compounding the confusion for local government
attorneys), the decision has resulted in a staggering
onslaught of lawsuits against local governments.
Litigants are using Reed to invalidate everything from
sign codes and panhandling ordinances to wage equity
laws and robo-call regulations.
In the meantime, thousands of local governments
have sought to follow Justice Alito’s guideposts in
his concurrence in Reed, which, consistent with
Metromedia, allows for distinctions between on/offpremises signs. The constitutionality of those
distinctions is now uncertain. This Court’s intervention
is needed to provide a clear and uniform rule for local
governments that seek to balance First Amendment
principles with the health, safety, and welfare of their
citizenry.

2

Wollschlaeger v. Governor, 848 F.3d 1293, 1332-33 (11th Cir.
2017) (Tjoflat, J. dissenting) (“On its face, Reed announced a sea
change in the traditional test for content neutrality under the First
Amendment, and, in the process, expanded the number of
previously permissible regulations now presumptively invalid
under strict scrutiny.”)

6
ARGUMENT
I.

THE CIRCUIT COURTS ARE SHARPLY
DIVIDED FOLLOWING THIS COURT’S
DECISION IN REED, RESULTING IN
CONFUSION FOR LOCAL GOVERNMENTS

Distinctions in local government sign codes between
on/off-premises signs are extremely common.3 For
example, according to a leading scholar and professor
of land use law who has consulted with local
governments on the constitutionality of sign ordinances
for almost 50 years, he “cannot recall ever seeing a sign
ordinance that does not have the off premise vs. on
premise distinction.”4 Two other local government land
use specialists that regularly consult with Amici’s
3

See e.g., Cary, N.C., Land Development Ordinance, ch. 9.1.3
(defining off-site sign to mean “any sign that is used to attract
attention to an object, person, product, institution, organization,
business, service, event, or location that is not located on the
premises upon which the sign is located’); Montgomery Co., Md.
Zoning Ordinance § 59.1.4.2 (defining off-site sign as “[a] sign that
identifies a location, person, entity, product, business, message, or
activity that is not connected with a use that is lawfully occurring
on the property where the sign is located.”); Tucson, Ariz., Unified
Development Code, art. 11.4.16 (defining off-site sign as “[a] sign
not located on the premises of the use identified or advertised by
the sign.”)
4

E-mail from Daniel Mandelker, Professor of Land Use Law and
State and Local Government Law, Wash. Univ. in St. Louis School
of Law, to Amanda Karras, Deputy Gen. Counsel, Int’l Mun.
Lawyers Assoc., (Feb. 2, 2021, 5:23 pm EST) (on file with author).
Professor Mandelker is the co-author of Planning and Control of
Land Development LexisNexis (9th ed. 2016), and author of Street
Graphics and the Law, American Planning Association (4th ed.
2015).

7
members agree, noting nearly all sign codes they have
worked on make these distinctions.5
Nevertheless, local governments in the Fifth and
Sixth Circuits have been hamstrung by decisions
holding that code distinctions between on/off premises
signs are content based and subject to strict scrutiny.
See Reagan Nat’l Advert. of Austin v. City of Austin,
972 F.3d 696, 704 (5th Cir. 2020); Thomas v. Bright,
937 F.3d 721, 729 (6th Cir. 2019). Meanwhile, local
governments in the Third, Ninth, and D.C. Circuits can
move forward as they have for 40 years making
distinctions between on/off-premises signs in their
codes without fear of triggering strict scrutiny. See
Strict Scrutiny Media Co. v. City of Reno, 812 F. App’x
462, 464, 2020 U.S. App. LEXIS 21296, at 4 (9th Cir.
2020); Adams Outdoor Advert. Ltd. P’ship v. Pa. DOT,
930 F.3d 199, 207 n.1 (3d Cir. 2019); Act Now to Stop
War & End Racism Coal. v. District of Columbia, 846
F.3d 391, 404 (D.C. Cir. 2017). The confusion in the
circuits arises not only from the narrow issue of on/offpremises distinctions in sign codes, but more broadly
on the question of whether the simple “need to read” a
sign to determine its import renders it impermissibly
content based. The issues are intertwined and have
spawned divergent opinions among the circuits,
5

E-mail from Susan Trevarthen, Partner, Chair of Public Sector
Land Use and Zoning Practice Group, Weiss Serota Helfman Cole
& Bierman to Amanda Karras, Deputy Gen. Counsel, Int’l Mun.
Lawyers Assoc., (Feb. 1, 2021, 12:17 pm EST) (on file with author).
E-mail from Brian Connolly, Shareholder with Otten Johnson and
Professor of Land Use Planning at the Univ. of Colo. School of Law
in Boulder and the Univ. of Denver Sturm College of Law to
Amanda Karras, Deputy Gen. Counsel, Int’l Mun. Lawyers Assoc.,
(Jan. 22, 2021, 6:59 pm EST) (on file with author).

8
resulting in
governments.

significant

uncertainty

for

local

For example, in Thomas, Tennessee argued that the
on/off premises distinction in the State’s Billboard
Regulation and Control Act was content neutral under
Reed as it relied on the sign’s location rather than its
content. The State counted six of nine Justices in Reed
that would have applied intermediate scrutiny to such
a distinction. Thomas, 937 F.3d at 732. The Sixth
Circuit disagreed, holding the regulation was content
based and subject to strict scrutiny. Id. at 733. The
court reasoned that in order “to determine whether the
on-premises exception does or does not apply (i.e.,
whether the sign satisfies or violates the Act), the
Tennessee official must read the message written on
the sign and determine its meaning, function, or
purpose.” Id. at 730. (emphasis added).
The Fifth Circuit below agreed with the Sixth
Circuit’s reasoning in Thomas, concluding that Austin’s
on/off-premises distinction was an “obvious contentbased inquiry” that “does not evade strict scrutiny. . .
simply because a location is involved.” City of Austin,
972 F.3d at 707 (citing Reed, 576 U.S. at 170). The
court reasoned that to determine whether a sign is “offpremises” and therefore not allowed to be digitized,
government officials must read it. Id. at 704.
In contrast, the Third Circuit declined to apply
strict scrutiny to a sign code’s on-premises exemption
because Reed did not address an exemption for onpremises signs, and because the concurring opinions by
Justices Alito and Kagan, which received a total of six
votes, indicated that on-premises sign regulations are

9
content neutral and strict scrutiny would not apply to
outdoor advertising regulations merely because they
provide an exemption for on-premises signs. Adams
Outdoor Advert. Ltd. P’ship, 930 F.3d at 207 n. 1. The
court added that Reed did not establish a legal
standard to evaluate laws that distinguish between
on/off-premises signs. Id.
The Ninth Circuit, like the Third, also applied
intermediate scrutiny to an off-premises ban of
commercial speech. In Strict Scrutiny Media Co. v.
City of Reno, the court held Reno’s ban on off-premises
billboards “created for the purpose of advertising or
promoting the commercial interest of any person . . .
which is not principally sold, available or otherwise
provided on the premises” is a commercial speech
restriction subject to the Central Hudson test instead
of Reed’s strict scrutiny standard. 812 F. App’x. at 464
(quoting Reno Nev. Land Dev. Code
§ 18.24.203.4570(24)). The Fifth and Sixth Circuits
would have concluded that if someone must read the
sign to determine if goods are sold on the premises the
sign code provision is content based, requiring strict
scrutiny.
Adding to the confusion, while not a case involving
an on/off-premises distinction, in its decision below, the
Fifth Circuit acknowledged that the D.C. Circuit has
taken the opposite approach in determining if a
regulation is content based in the wake of Reed. See
City of Austin, 972 F.3d at 705. Act Now to Stop War &
End Racism Coal. v. District of Columbia (“Act Now”)
involved a District of Columbia regulation that allowed
any sign to be affixed to a publicly owned lamppost for

10
no more than 180 days, but indicated that any sign
related to a specific event would need to be removed 30
days after the event. See Act Now, 846 F.3d at 396;
D.C. MUN. REGS. tit. 24, §§ 108.5, 108.6. The court
rejected the plaintiff’s arguments that Reed rendered
the regulation content based, concluding the mere “fact
that District officials may look at what a post says to
determine whether it is ‘event related’ does not render
the District’s lamppost rule content based.” Id. at 404.
Just as an official in Austin, Texas or Franklin,
Tennessee would have to read a sign to determine if it
is on or off-premises (to see if “Joe’s Tires” indeed was
the purveyor of tires at that location), the D.C. Circuit
reasoned that an official “might read a date and place
on a sign to determine that it relates to a bygone
demonstration, school auction, or church fundraiser.”
But the signs in question would only be content based
in Austin or Franklin and would be content neutral in
Washington D.C.
Like the D.C. Circuit, the Ninth Circuit also
rejected the argument that Reed means that an
ordinance is per se content based simply because an
enforcement officer must examine a message. See
Recycle for Change v. City of Oakland, 856 F.3d 666,
670 (9th Cir. 2017). In Recycle for Change, the City
made it unlawful to allow unstaffed donation collection
boxes on any real property without the owner first
obtaining a permit for the collection box. Id. at 668.
The court concluded the ordinance was not a contentbased regulation. Id. at 673. In rejecting the challenge
to the provision, the Ninth Circuit explained “[t]he
officer must read it test cuts too broadly if used as a
bellwether of content. If applied without common

11
sense, this principle would mean that every sign,
except a blank sign, would be content based.” Id. at
671 (internal quotations omitted).
This split in the circuits has real world
consequences for local governments, impeding one of
their core regulatory functions and extending well
beyond the question of on/off-premises signs. Whether
this kind of cursory examination is compatible with
Reed’s framework is a matter only the Court can
reconcile. Amici seek review of these issues because
their members have a strong interest in clear, uniform,
and predictable standards for assessing whether a
regulation which requires a government official to read
a sign’s message is inherently subject to strict scrutiny,
and if so, whether such an examination subjects on/offpremises distinctions to Reed’s strict scrutiny standard
as well.
II.

CERTIORARI IS WARRANTED TO
RESOLVE THE TENSION BETWEEN THIS
COURT’S HOLDING IN METROMEDIA
AND REED

In Metromedia, this Court held that “offsite
commercial billboards may be prohibited while onsite
commercial billboards are permitted.” Metromedia, 453
U.S. at 512. For the last 40 years, local governments
around the country have relied on that ruling as a
guidepost when drafting sign ordinances.
Despite what Respondents argued below, Justice
Alito’s concurrence in Reed did not “muddy the issue”
as to whether on/off-premises regulations are content-

12
based and automatically subject to strict scrutiny.6 To
the contrary, his concurrence offered guidance to local
governments by providing a non-exhaustive list of rules
that would not be content based under the majority’s
ruling, including, significantly “[r]ules distinguishing
between on-premises and off-premises signs.” Reed,
576 U.S. at 174 (Alito, J., concurring). The inclusion of
on/off-premises distinctions in Justice Alito’s
concurrence is hardly surprising given Metromedia’s
holding on the issue and the fact that Reed did not so
much as mention Metromedia, let alone overrule it.
Though neither the Fifth or Sixth Circuits took
Metromedia head on, the decisions in Thomas and the
case below cannot be reconciled with Metromedia’s onpoint ruling to the contrary.7 It is axiomatic that this
Court does not, sub silentio, overrule its own
precedents. In fact, “[i]f a precedent of this Court has
direct application in a case, yet appears to rest on
reasons rejected in some other line of decisions, the
Court of Appeals should follow the case which directly
controls, leaving to this Court the prerogative of
overruling its own decisions.” Rodriguez de Quijas v.
Shearson/American Express, Inc., 490 U.S. 477, 484
(1989). Far from heeding this requirement, the Fifth
and Sixth Circuits ignored Metromedia’s controlling
precedent in the area of on/off-premises sign
regulation, which was not overruled by Reed.
6

Brief of Appellant at 23, n. 3, Reagan Nat’l Advert. of Austin v.
City of Austin, no. 19-cv-50354 (5th Cir. July 9, 2019).
7

Indeed, it is unlikely that the on/off-premises distinction at issue
in Metromedia would be upheld by the Fifth or Sixth Circuit given
their “need to read” standard.

13
Adding to the confusion, other lower courts have
explicitly rejected arguments that Reed should apply to
on/off-premises sign distinctions over Metromedia’s
explicit holding to the contrary.8 For example, in
coming to its conclusion that Metromedia controls, the

8

See e.g., Adams Outdoor Advert. Ltd. P’ship v. City of Madison,
No. 17-cv-576-jdp, 2020 U.S. Dist. LEXIS 60861, at *34-36 (W.D.
Wis. Apr. 7, 2020) (holding Reed did not “purport to change the
level of scrutiny applicable to billboard regulations like Madison’s,
which single out signs for regulation based on … whether they
direct attention on-or-off premise”, reasoning that Reed made no
mention of Metromedia); Cal. Outdoor Equity Partners v. City of
Corona, No. CV 15-03172 MMM (AGRx), 2015 U.S. Dist. LEXIS
89454, at *26-27 (C.D. Cal. July 9, 2015), aff’d 244 Cal. App. 4th
291, 303-04 (2016) (concluding “that Reed has no bearing on this
case” regarding on and off-site signs, which was “abundantly clear
from the fact that Reed does not even cite Central Hudson, let
alone apply it” and that “Metromedia and its progeny remain good
law”); Matter of Expressview Dev., Inc. v. Town of Gates Zoning Bd.
of Appeals, 46 N.Y.S.3d 725, 730 (App. Div. 4th Dept. 2017)
(rejecting argument that distinctions in on and off-premises signs
violate the First Amendment, concluding Reed “did not overturn
the prevailing intermediate scrutiny test for restrictions on
commercial speech and citing to Central Hudson and Metromedia);
see also Adams Outdoor Advert. Ltd. P’ship v. Pa. DOT, 930 F.3d
199, 207 n. 1 (3d Cir. 2019) (applying intermediate scrutiny to
on/off-premises distinction relying on its own decision in Rappa v.
New Castle Cty., 18 F.3d 1043, 1061 (3d Cir. 1994), which while
critical of the Court’s splintered reasoning in Metromedia,
nevertheless concluded it was “bound by its result.”); But see Jeff
Anthnoy [sic] Props. v. Alviti, No. 1:19-CV-00360, 2020 U.S. Dist.
LEXIS 121576, at *2 (D.R.I. July 10, 2020) (concluding although
“it may have been a foregone conclusion some time ago that Rhode
Island’s statute [prohibiting off-premise advertising] be subjected
only to intermediate scrutiny pursuant to [Metromedia and Central
Hudson], the plaintiffs have raised a serious issue concerning
whether Reed … is superseding authority in this context”).

14
district court in Adams Outdoor Advert. Ltd. P’ship v.
City of Madison acknowledged that:
Reed may create some tension with Central
Hudson and Metromedia. But the concurring
opinions of Justices Breyer and Alito, and the
absence of any mention of Central
Hudson and Metromedia in the majority opinion,
show that these two precedents apply to the
regulation of billboards. Regardless of
what Reed may portend for the Court’s future
decisions, this court has no authority to
disregard a Supreme Court decision that the
Court itself has not overruled. See Agostini v.
Felton, 521 U.S. 203, 237, 117 S. Ct. 1997, 138 L.
Ed. 2d 391 (1997) (warning lower courts against
concluding that more recent Supreme Court
cases “have, by implication, overruled an earlier
precedent”).
City of Madison, 2020 U.S. Dist. LEXIS 60861, at *3536.
What the district court in City of Madison called
“tension,” the nearly 40,000 local governments in this
country call “confusion.” If Metromedia is no longer
good law, then more than anything, local governments
need to know that, but the ruling must come from this
Court.

15
III.

UNLESS THIS COURT PROVIDES
FURTHER CLARITY, REED WILL
SUBVERT CENTRAL HUDSON

Conflicting interpretations of Reed are undermining
far more than the regulation of on/off-premises signs.
They threaten to eviscerate a longstanding and
foundational pillar of First Amendment law—the rule
that commercial speech may be regulated more
stringently than non-commercial speech. Premised on
the principle that commercial messaging which
promotes unlawful, unsafe, or fraudulent business
activity does not command the absolute protections
afforded non-commercial speech, Central Hudson has
endorsed intermediate scrutiny of commercial speech
for more than four decades. Central Hudson Gas &
Electric Corp., 447 U.S. at 561.
Emboldened by Reed, adversaries of sign regulation
are now blatantly re-casting the history and legitimacy
of Central Hudson. And case law post-Reed is
divergent.
For example, several district courts
concluded that Reed did not “explicitly” overturn
Central Hudson even as some of these same courts
acknowledged that commercial speech “inherently
requires a content-based distinction.” See Boelter v.
Hearst Communs., Inc., 192 F.Supp. 3d 427, n.10
(S.D.N.Y. 2016).9 Other courts have underscored the
uncertainty in this area, noting for example: “Whether
the Supreme Court upended the Central Hudson
intermediate scrutiny test in Sorrell or Reed for
content-based or speaker-based commercial speech
9

See also Matter of Expressview Dev., Inc., 46 N.Y.S.3d at 730; City
of Madison, 2020 U.S. Dist. LEXIS 60861, at *35-36.

16
regulations is not abundantly clear.” Chamber of
Commerce of Greater Philadelphia v. City of
Philadelphia, 319 F.Supp. 3d 773, 784 (E.D. Pa. 2018).
Moreover, as noted in Part I, the Sixth Circuit
applied Reed to strike a Tennessee law that
distinguished between on/off-premises signs, applying
the “if you must read” shorthand. Thomas, 937 F.3d at
930. While that court gave lip service to the mythology
that a commercial speech regulation could still survive
such a test, the Seventh Circuit, in reviewing the
Thomas decision was unconvinced, noting the Sixth
Circuit in Thomas “recently held that Reed supersedes
Central Hudson.” See Leibundguth Storage & Van
Service, Inc. v. Village of Downers Grove, 939 F.3d 859
(7th Cir. 2019).
One year after implicitly undermining Central
Hudson, the Sixth Circuit did so more directly. In
International Outdoor, Inc. v. City of Troy, the Sixth
Circuit unambiguously ruled that any content-based
sign regulation, including those that apply greater
limitations on commercial speech, must now be subject
to strict scrutiny analysis. 974 F.3d 690, 703 (6th Cir.
2020). The court held that the City’s ordinance was
invalid under Reed because it regulated commercial
speech more rigorously than non-commercial
speech—in other words, the very differentiation
promoted by Central Hudson. Id. at 707-08. While the
court took care to distinguish cases from the Second,
Third, Ninth, and Tenth Circuits applying intermediate
scrutiny to regulations of purely commercial speech
post-Reed, nowhere did it affirm the continued viability
of Central Hudson. Id. at 703-06.

17
In contrast to the Sixth Circuit, the Ninth Circuit
unequivocally interpreted Reed as preserving Central
Hudson. See Contest Promotions, LLC v. City & Cty. of
S.F., 867 F.3d 1171, 1175 (9th Cir. 2017). The Contest
Promotions opinion upheld the municipality’s planning
code provision, which exempted noncommercial signs
from regulation, applying intermediate scrutiny under
Central Hudson. Id. at 1178.
While the case below does not directly address
Central Hudson, the ripple effects of Reed are being felt
far and wide, including in the area of commercial and
non-commercial speech distinctions. This case presents
a vehicle to restore clarity and stability to the entire
ambit of speech regulation, allowing courts nationwide
to adjudicate with confidence—and enabling local
governments to better focus scarce resources on serving
their constituents.
IV.

THIS CASE PRESENTS AN IMPORTANT
ISSUE FOR THE NEARLY 40,000 LOCAL
GOVERNMENTS IN THIS COUNTRY
A. Studies Demonstrate that Digitized OffPremises Signs Present Significant
Safety Risks for Local Governments’
Citizenry

This Court has recognized that traffic safety and a
local government’s aesthetics are substantial
governmental interests, satisfying intermediate
scrutiny.10 Metromedia, 453 U.S. at 507-08. Even Reed
10

While this section only addresses safety considerations, Amici
agree with arguments that aesthetics are also a substantial and/or
compelling governmental interest.

18
acknowledged that these interests may be compelling.
Reed, 576 U.S. at 157. Whether the Court wishes to
classify them as compelling or substantial, there can be
no doubt that local governments have, pursuant to
their police powers, the ability to regulate for the
health, welfare, and safety of their citizenry. See De
Buono v. Nysa-Ila Med. & Clinical Servs. Fund, 520
U.S. 806, 814 (1997) (noting “the historic police powers
of the State include the regulation of matters of health
and safety” (citing Hillsborough Cty. v. Automated
Med. Labs., Inc., 471 U.S. 707, 715 (1985)); see also Ry.
Express Agency, Inc. v. New York, 336 U.S. 106, 109
(1949) (concluding the Court would be “trespassing on
one of the most intensely local and specialized of all
municipal problems” if it concluded New York’s traffic
regulation banning advertising vehicles “had no
relation to the traffic problem of New York City.”)
Regulations intended to improve traffic safety fall
squarely within state and local government historical
police powers.
Courts consider traffic safety a substantial or
compelling governmental interest for good reason.
Driver distraction from digital billboards, which is
what is at stake in this case, is significant.11 Traffic
11

Jerry Wachtel, Compendium of a Decade’s Worth of Research
Studies on Distraction from Digital Billboards (Commercial
Electronic Variable Message Signs [CEVMS]), The Veridian
Group, Inc, p. 3, October 16, 2020 (available on file with author)
(hereinafter “Wachtel Safety Research Compendium”); see also
Hucul Advert., LLC v. Charter Twp. of Gaines, 748 F.3d 273, 28081 (6th Cir. 2014) (noting digital billboards are more likely to
negatively impact safety because of their increased visibility and
changing display); Naser Jewelers, Inc. v. City of Concord, 513 F.3d
27, 35 (1st Cir. 2008) (providing “it is given that a billboard can

19
studies demonstrate that the risk of distraction, and
therefore of vehicular accidents, increases when digital
billboards “competed for the driver’s visual attention
with more demanding road, traffic, and weather
conditions, when travel speeds were higher, or when an
unanticipated event or action (such as a sudden lane
change or hard braking by a lead vehicle) occurred to
which the driver had to respond quickly and correct.”
Wachtel Safety Research Compendium, p. 3. And,
critically, “the most recent epidemiological studies have
begun to demonstrate what has long been suspected
but not proven – that roadside billboards are associated
with increases in crash rates where such billboards are
located.” Id. at 4.
For example, a 2013 study from Denmark involved
equipping cars with GPS tracking to measure speed, an
eye tracking system, and a laser scanner to measure
distances to other cars. Id. at 10. The study concluded
that “advertising signs do affect driver attention to the
extent that road safety is compromised.”
Id.
Significantly, 22% of all drivers glanced at the
advertisement for a total of two or more seconds. Id.
And in approximately 25% of the cars studied, the
safety buffer to the vehicle ahead of it was less than
two seconds. Id. Laws of physics affirm the problem
where a car traveling at 60 mph travels 88 feet per
second. For a two second distraction, a car at that
speed travels more than half a football field. Cognitive
studies indicate that, while reaction times differ based
on stimuli and human differences, the distraction
constitute a traffic hazard” and concluding that digital billboards
“which provide more visual stimuli than traditional signs, logically
will be more distracting and more hazardous”).

20
caused by digital billboards is significant and likely to
cause an increase in traffic accidents.12
The implications of the Denmark study were borne
out by a 2015 safety study from Florida and Alabama.
In this study, a total of 454 collisions on high speed
highways in the two states were analyzed, including
locations associated with digital billboards and a
control area without a billboard. Id. at 11, 35. The
study found that “the presence of digital billboards
increased the overall crash rates in areas of billboard
influence compared to control areas downstream of the
digital billboard locations. The increase was 25% in
Florida and 29% in Alabama.”13 Id.
Conversely, research suggests that on-premises
signs, and even on-premises digital signs, do not carry
the same traffic risks. Specifically, a 2014 traffic study
concluded there was “no evidence the installation of onpremise signs at these locations led to an automatic
increase in the number of crashes.” Id. at 10.
12

One business that discusses cognitive training describes the
distinctions between how different stimuli and differences in
people might affect reaction and response time. Reaction Time
Cognitive Ability-Neuropsychology, COGNIFIT, https://www.cognifit.
com/science/cognitive-skills/response-time (last visited Feb. 5,
2021). A less scientific approach easily identifies the distinctions:
try and catch a ball thrown at you while you expect it and then try
to catch a ball thrown at you when you don’t expect it. Anticipated
events reduce reaction and response times and improve the
response. A distracted driver, like a person trying to react to an
unexpected pass, cannot be expected to respond well and when
behind the wheel of a car the results can be disastrous.
13

The authors of the study noted the data set was too small to
employ statistical analyses.

21
Where billboards, and in particular, digital
billboards, are more likely to cause traffic accidents
that could result in increased fatalities, local
governments are well within their police powers to
regulate those signs and determine, as the City did
here, that the advertiser’s interest in digitization is
outweighed by the municipality’s compelling interest in
preventing traffic fatalities. Local governments should
not have their hands tied behind their backs when it
comes to such a core function. This Court should grant
certiorari given the important public safety issues at
stake.
B. The Issues in this Case are Important to
Local Governments Who Spend
Significant Time, Money, and Resources
on Amending Sign Codes
Both large local governments like Las Vegas and
Denver and small cities and towns like Lake Mary,
Florida and Bentonville, Arkansas expend tremendous
time, money, and resources to amend their sign codes.
The process can take many months, or even years in
some cases, and can involve: numerous staff meetings
to develop language that achieve the goals of the entity;
attorney research and drafting time; self-generated
studies; site visits and photography; studying other
local governments’ sign regulations; hiring and meeting
with outside sign law consultants; meetings with
industry representatives; meetings with design
commissions; back and forth review and approval by a
sponsoring member of the council; presentations to city
or county council; multiple public hearings before

22
planning commissions and councils; and review and
public comment by citizens.
Once the ordinance is approved, the local
government will, in some cases, undertake a public
information campaign to educate representatives from
various industries, it will amend its website, revise
handouts, update references, and ultimately publish
the ordinance revision in hard copy and online. Each
stage in the process may require notice to the public
and the production of voluminous staff reports, taking
additional time and resources away from other local
government functions.
Additionally, smaller localities lack specialized in
house legal counsel and will often need to hire experts
to help them navigate the legal complexities involved
in amending their sign ordinances.
Most local
government attorneys are generalists, who advise their
clients on everything from land use and zoning issues
to questions about employment law and new technology
like e-scooters and drones. They draft contracts, deal
with natural disasters and FEMA reimbursement,
handle economic development questions, securities
regulations, and advise their clients on First
Amendment issues. And lately, they have all been
working tirelessly on their local governments’
responses to the pandemic, addressing everything from
issues surrounding public health regulations to
ensuring that their latest zoom council meeting
complies with the state’s open meetings laws. Most are
not sign law experts, and, given the lack of clarity in
the law in this area, many have resorted to hiring

23
consultants to help advise them on revising their sign
ordinances.
For example, Bentonville, Arkansas, with a
population of 50,000, hired an outside sign law expert
to help update its ordinance. The process took several
months and hundreds of staff hours, in addition to the
time recorded by their paid consultant. Monroe
County, Florida, population 75,000, also hired an
outside sign code consultant, taking more than three
years to amend its ordinance. Manitowoc, Wisconsin,
a city of 30,000, recently hired an outside sign
consultant and expects the process to be completed in
nine months to a year. Litigation can also prolong the
process; in Madison, Wisconsin, legal action caused the
last major overhaul to consume more than five years.
These are merely four examples of many thousands
like them. Outside sign experts can cost these local
governments, many small and strapped for cash, tens
of thousands of dollars.
This is not to say that updates to sign codes are not
helpful. Local governments undeniably have a vested
interest in ensuring that their sign regulations are
responsive to First Amendment rights. Following
Reed, local governments in great numbers undertook
the task of overhauling their sign regulations, taking
care to avoid content based distinctions. In doing so,
they relied on Metromedia and Justice Alito’s
concurrence in Reed that distinctions in on/off-premises
signs are not automatically content based distinctions
subject to strict scrutiny. Austin is one of many
hundreds, if not thousands, of local governments that
make these distinctions.

24
Even more problematic than the Fifth and Sixth
Circuit’s decisions ignoring this Court’s precedent,
thousands of local governments in circuits that have
not yet weighed in on the split involving on/offpremises sign distinctions and the “need to read”
conundrum are stuck in limbo. This Court should
grant certiorari to clarify that it did not overturn
Metromedia or Central Hudson sub silentio and that
local governments may continue to rely upon them.
CONCLUSION
The Court should grant the City of Austin’s petition
for writ of certiorari.
Respectfully submitted,
CHARLES W. THOMPSON, JR.
AMANDA KELLAR KARRAS
Counsel of Record
ERICH R. EISELT
DEANNA SHAHNAMI
INTERNATIONAL MUNICIPAL LAWYERS ASSOCIATION
51 Monroe Street, Suite 404
Rockville, MD 20850
(202) 466-5424
akarras@imla.org
Counsel for Amici Curiae

